State of Louisiana

DEPARTMENT OF JUSTICE
OFFICE OF THE ATTORNEY GENERAL
P.O. BOX 94005
BATON ROUGE
70804-9005

September 7, 2021

By electronic submission
The Honorable Scott S. Harris
Clerk of Court, Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20543
Re: Justin Terrell Atkins v. Timothy Hooper, Warden (20-1605)
Dear Mr. Harris:
The Court has requested a response from Respondent, the State of Louisiana, in this
matter. The brief in opposition is currently due on September 10, 2021. In light of the
devastation and extended power outages caused by Hurricane Ida, the State
respectfully requests an extension of thirty days in which to file its brief in opposition.
The undersigned has communicated with counsel for the Petitioner, Justin Terrell
Atkins, and she does not oppose this request.
The new due date would be October 11, 2021.

JEFF LANDRY
ATTORNEY GENERAL
_/s/ Shae McPhee__________________
Shae McPhee
Deputy Solicitor General
cc: Christine Marie Calogero

